            Office of Inspector General




March 31, 2004

WINTON A. BURNETT
MANAGER, BAY-VALLEY DISTRICT

SUBJECT:         Audit Report - Efficiency of the Oakland International
                 Service Facility and the Regatta Facility
                 (Report Number NO-AR-04-007)

This report presents the results of our self-initiated audit of two processing operations in
the Bay-Valley District (Project Number 04YG005NO000). Our objectives were to
determine the efficiency of work performed by the Oakland International Service Facility
(ISF) and to assess the use of the Regatta facility. We conducted this audit jointly
with Pacific Area mail processing managers and in cooperation with the manager,
Bay-Valley District.

We concluded that Postal Service could increase efficiency at the Oakland ISF and the
Regatta facility by:

       •    Reducing 25,000 workhours. This reduction could produce a cost avoidance
            of approximately $8.2 million over ten years.

       •    Transferring military surface mail processed at the Regatta facility to the
            Oakland ISF and closing the Regatta facility. As a result of these actions, the
            Postal Service could avoid approximately $3.4 million in facility costs, and
            approximately $5.4 million in labor costs over ten years.

We made three recommendations to Postal Service management addressing these
issues. Management agreed with our findings and recommendations and has initiatives
in progress, completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 and 3 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Robert J. Batta, director, Network Operations - Processing, at (703) 248-2100 or me
at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Paul E. Vogel
    Alfred Iniguez
    Michael J. Nappi
    Kerry L. Wolny
    Richard J. Blancas
    David J. Nehring
    Joseph K. Moore
    Susan M. Duchek
Efficiency of Oakland International                                      NO-AR-04-007
 Service Facility and the Regatta Facility



                                      TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                     1

     Background                                                                   1
     Objectives, Scope, and Methodology                                           2
     Prior Audit Coverage                                                         2

 Part II

 Audit Results                                                                    3

     Assessment of Resources Used at the Oakland International Service            3
      Facility
     Recommendations                                                              5
     Management’s Comments                                                        5
     Evaluation of Management’s Comments                                          5

     Assessment of the Regatta Facility                                           6
     Recommendation                                                               7
     Management’s Comments                                                        7
     Evaluation of Management’s Comments                                          7

 Appendix A. Revenue and Growth Rate Percentages FYs 1998 to 2002                 8

 Appendix B. Prior Audit Coverage                                                 9

 Appendix C. Cost Avoidance at the Oakland International Service                 11
             Facility

 Appendix D. Projections of Cost Avoidance Based on Closure of the               12
             Regatta Facility

 Appendix E. Management’s Comments                                               13
Efficiency of Oakland International                                                    NO-AR-04-007
 Service Facility and the Regatta Facility


                                     EXECUTIVE SUMMARY
 Introduction                     The Office of Inspector General (OIG) assessed the
                                  operations at two facilities within the Bay-Valley District.
                                  Our objectives were to determine the efficiency of work
                                  performed by the Oakland International Service Facility
                                  (ISF) and to assess the use of the Regatta facility. We
                                  conducted this self-initiated audit jointly with Pacific Area
                                  mail processing managers and in cooperation with the
                                  managers, Bay-Valley District.

 Results in Brief                 We concluded that Postal Service could increase efficiency
                                  at the Oakland ISF and the Regatta facility by:

                                      •      Reducing 25,000 workhours. This reduction
                                             could produce a cost avoidance of approximately
                                             $8.2 million over ten years.

                                      •      Transferring military surface mail processed at the
                                             Regatta facility to the Oakland ISF and closing the
                                             Regatta facility. As a result of these actions, the
                                             Postal Service could avoid approximately $3.4 million
                                             in facility costs, and approximately $5.4 million in
                                             labor costs over ten years.

                                  Postal Service management addressed operational
                                  efficiency through the budget process focusing on workhour
                                  utilization against the plan. However, Postal Service
                                  management had not evaluated operational efficiency in the
                                  manner carried out by this audit, which included
                                  benchmarking operations against other international service
                                  centers and domestic plant operations.

                                  During the audit, Postal Service management agreed to
                                  reduce workhours at the Oakland ISF by 25,000 hours by
                                  the end of fiscal year (FY) 2006. They also agreed to close
                                  the Regatta facility and transfer the workload and workhour
                                  budget to the Oakland ISF, reducing Regatta’s workhour
                                  budget by 15,000 hours by the end of FY 2006.

 Summary of                       We recommended the manager, Bay-Valley District, reduce
 Recommendations                  workhours at the Oakland ISF, periodically evaluate
                                  operating efficiency, and close the Regatta facility and
                                  transfer the mail volume and workhour budget to the
                                  Oakland ISF.

                                                     i
Efficiency of Oakland International                                                NO-AR-04-007
 Service Facility and the Regatta Facility




 Summary of                       Management agreed with our findings and
 Management’s                     recommendations. Management’s comments, in their
 Comments                         entirety, are included in Appendix E of this report.

 Overall Evaluation of            Management’s comments reflect that the manager,
 Management’s                     Bay-Valley District has been very proactive and aggressive
 Comments                         with implementing the recommendations. The Bay-Valley
                                  District is also committed to continually improving their
                                  operations as made evident by their participation and
                                  cooperation with the joint effort process. Management’s
                                  actions, taken or planned, should correct the issues
                                  identified in the findings.




                                                ii
Efficiency of Oakland International                                                                        NO-AR-04-007
 Service Facility and the Regatta Facility


                                               INTRODUCTION
    Background                         International service centers were established in 1996 to
                                       allow the Postal Service to better compete in the growing
                                       international mail market. Before 1996, international and
                                       military mail1 was processed by Exchange Offices.2 These
                                       Exchange Offices were collocated in processing and
                                       distribution centers where processing domestic mail took
                                       precedence over international mail.

                                       On August 5, 1997, the Board of Governors approved
                                       $146.9 million in capital investments funding and
                                       $129.7 million (undiscounted) for lease expense funding to
                                       establish a network dedicated to processing international
                                       and military mail. The Postal Service established this
                                       network to improve international and military mail service by
                                       providing a dedicated workforce and single-focus
                                       management. Postal Service management hoped this
                                       approach would lead to service improvements and provide
                                       the necessary structure to support new products and
                                       increase revenue. In response to this marketing and sales
                                       plan, international service centers were established in
                                       Miami, Florida; Chicago, Illinois; Los Angeles, California;
                                       Dallas, Texas; San Francisco, California; New York,
                                       New York; Dulles, Virginia; and Oakland, California.3

                                       However, the implementation of this marketing plan did not
                                       increase volume or revenue as projected. International mail
                                       volume declined 16.5 percent in fiscal years (FY) 2001 to
                                       2002, while revenue declined by 8.8 percent. Appendix A
                                       shows growth rate percentages of revenue and volume from
                                       FYs 1998 through 2002. In 1996, Coopers and Lybrand,
                                       LLP, conducted a study for the Postal Service which
                                       projected that international mail revenue would be
                                       $6.1 billion in 2000 and $11.4 billion by the year 2005.
                                       However, actual revenue in 2000 was $1.66 billion, which
                                       represented a shortfall of 73 percent of the projected
                                       amount. It is unlikely the Postal Service will achieve the

1
  International mail is mail originating in one country and destinating in another. It is classified as Postal Union Mail
(letters, cards, and other articles), Postal Service parcels, and Express Mail International Service. Military mail is mail
addressed to or mailed from a military unit located outside the continental United States or between two military units
overseas.
2
  An International Exchange Office/International Mail Service Center is a post office or airport mail center or facility
authorized to exchange international mail and military mail, both air and surface, with another country.
3
  The planned Dulles, Virginia, ISC facility was completed in October 1999, but does not serve as an international
service center. The Oakland, California, facility is identified as an ISF and began operations in October 2001.


                                                          1
Efficiency of Oakland International                                                  NO-AR-04-007
 Service Facility and the Regatta Facility


                                    2005 projection of $11.4 billion, based on revenue in
                                    FY 2002 of $1.58 billion.

   Objectives, Scope,               The audit assessed the efficiency of work performed by the
   and Methodology                  Oakland ISF and the use of the Regatta facility. We
                                    conducted this audit jointly with Pacific Area mail processing
                                    managers and in cooperation with Oakland plant
                                    management.

                                    To assess the efficiency of these two facilities, we observed
                                    processing operations, analyzed mail volumes, workhour
                                    usage, and evaluated capacities.

                                    We relied on Postal Service operational systems, including
                                    the National Workhour Reporting System, the Management
                                    Operating Data System, the Web Enterprise Information
                                    System, and the Web End-of-Run System to perform our
                                    analysis of mailings and workhours. We did not test the
                                    validity of controls over these systems. However, we
                                    checked the accuracy of data by confirming our analysis
                                    and results with Postal Service managers. Nothing came to
                                    our attention to suggest the data used was unreliable.

                                    This audit was conducted from October 2003 through
                                    March 2004, in accordance with generally accepted
                                    government auditing standards and included such tests
                                    of internal controls, as were considered necessary under
                                    the circumstances. We discussed our conclusions and
                                    observations with appropriate management officials and
                                    included their comments, where appropriate.

   Prior Audit Coverage             We have issued seven prior audit reports on the efficiency
                                    of business mail entry unit clerks. (See Appendix B for
                                    details.)




                                                 2
Efficiency of Oakland International                                                                      NO-AR-04-007
 Service Facility and the Regatta Facility


                                               AUDIT RESULTS
Assessment of                           The Postal Service could improve the efficiency of
Resources Used at the                   processing international and military mail at the Oakland ISF.
Oakland International                   Specifically, we found that from FYs 2002 to 2003,
Service Facility                        productivity at the Oakland ISF decreased. This occurred
                                        because of constant changes in mail operations during the
                                        three years the facility has been open, disparities between
                                        employee work schedules and mail flow, and a large
                                        percentage of limited and light duty assignments, and a high
                                        level of sick leave usage.

                                        Title 39, U.S.C., Chapter 4, Section 403 states, “The Postal
                                        Service shall plan, develop, promote and provide adequate
                                        and efficient postal services. . . .” Postal Service
                                        management addressed operational efficiency through the
                                        budget process focusing on workhour utilization against the
                                        plan.4 However, Postal Service management had not
                                        evaluated operational efficiency in the manner carried out by
                                        this audit.

Productivity Decreased                  The Oakland ISF was generally less efficient from FYs 2002
from FYs 2002 to 2003                   to 2003. For example, productivity on the small parcel and
                                        bundle sorter dropped from 151 pieces per hour in FY 2002
                                        to 120 pieces per hour in FY 2003. The table below shows
                                        these productivity changes:
                                                                                                    PERCENTAGE OF
                                                                        ACTUAL                          FY 2002
                                            MAIL                     PRODUCTIVITY                    PRODUCTIVITY
                                         PROCESSING                   (PIECES PER                     ACHIEVED IN
                                          OPERATION                   WORKHOUR)                          2003
                                                                    FY            FY
                                                                   2002         2003
                                         Flat Sorting
                                         Machine 1000               312              299                       95.8

                                         Small Parcel
                                         and Bundle                 151              120                       79.5
                                         Sorter

                                         Linear
                                         Integrated                  25               22                       88.0
                                         Parcel Sorter
                                                                    145               40                       27.6
                                         Flats Manual

                                         Parcels
                                                                     20               33                   165.0
                                         Manual


4
    The budget process takes into account productivity requirements, volume, and cost reduction initiatives.


                                                          3
Efficiency of Oakland International                                                                    NO-AR-04-007
 Service Facility and the Regatta Facility



                                      Through observations and discussions with management
                                      officials at the Oakland ISF, we found that several factors
                                      contributed to this decline.

                                      Management stated that during its three-year history, the
                                      Oakland ISF has been in a state of constant change and has
                                      incorporated new operations each year. In addition,
                                      sortation plans at the Oakland ISF doubled between
                                      calendar years 2002 and 2003 to support new operations.
                                      Management further stated that the 2003 productivity was
                                      less than 2002 due to staff training and development of
                                      workflow design changes. However, they have identified
                                      inefficiencies in mail flow and operations and expect to
                                      achieve our recommended workhour reductions over the
                                      next three years.

                                      At the Oakland ISF, employee work schedules were not
                                      coordinated with mail flow to optimize work efficiency. We
                                      found that employees were not always clocked into the
                                      operations in which they were working. For example, in at
                                      least three separate operations, employee timecards did not
                                      reflect the actual employees assigned to that operation.
                                      Management agreed with our assessment and stated that
                                      action would be taken to correct this deficiency.

                                      Low productivity could also be attributed to the high
                                      number of employees on limited or light duty assignments5
                                      and the high level of sick leave usage. During FY 2002, the
                                      Oakland ISF had 22 employees (12 percent) on limited
                                      or light duty. In FY 2003, this number had increased to
                                      26 employees (15 percent).6 In addition, management
                                      stated that sick leave usage contributed to lowered
                                      productivity. Approximately one-third of the workforce had
                                      less than 100 hours of accrued sick leave.7 However, in
                                      2003, management had reduced sick leave usage by
                                      17.1 percent over 2002.



5
  Employees are placed on limited duty assignments because of on-the-job injuries and are assigned tasks within
their physical limitations. Employees are placed on light duty assignments because of off-the-job injuries and may be
assigned tasks within their physical limitations, if available. Generally these employees are assigned to new positions
requiring additional training.
6
  At the time of our visit in November 2003, the Oakland ISF had 178 employees and no part-time flexible, casual, or
temporary employees.
7
  A full-time employee can accrue 104 hours of sick leave per year.


                                                        4
Efficiency of Oakland International                                                   NO-AR-04-007
 Service Facility and the Regatta Facility



                                    We determined that as a result of these factors, the Postal
                                    Service inefficiently processed mail at the Oakland ISF. In
                                    addition to the efficiencies management has already gained,
                                    we estimate that approximately 25,000 workhours could be
                                    eliminated by the end of FY 2006. This could be
                                    accomplished by periodically evaluating mail processing
                                    operations, better aligning employee work schedules with
                                    mail flow, and continuing to reduce light and limited duty
                                    assignments and sick leave. The reduction in workhours by
                                    FY 2006 will result in a cost avoidance for the Postal Service
                                    of approximately $8.2 million. Appendix C details the
                                    financial impact of workhour reductions at the Oakland ISF.

Management’s Actions                To improve productivity, management agreed to eliminate at least
                                    25,000 workhours at the Oakland ISF by the end of FY 2006.
                                    Workhour reductions would be achieved through employee
                                    attrition and productivity increases.

Recommendations                     To improve operating efficiency at the Oakland International
                                    Service Facility, we recommend the manager, Bay-Valley District:

                                        1. Eliminate 25,000 workhours as planned.

                                        2. Periodically evaluate operating efficiency and staffing at
                                           the Oakland International Service Facility to determine
                                           whether further workhour adjustments are necessary
                                           based on workload.

Management’s                        Management agreed with our finding, recommendations, and
Comments                            associated economic impact.

Evaluation of                       Management’s actions, taken or planned, should correct the
Management’s                        issues identified in the findings.
Comments




                                                  5
Efficiency of Oakland International                                                                         NO-AR-04-007
 Service Facility and the Regatta Facility



    Assessment of the                   Military surface mail8 processed at the Regatta facility in
    Regatta Facility                    Oakland, California, could be processed more efficiently at
                                        the Oakland ISF. Our review noted the following
                                        inefficiencies at the Regatta facility:

                                            •    The facility was being used to manually process
                                                 military surface mail, which is inefficient.

                                            •    The facility was in operation for only one tour, Monday
                                                 through Friday from 6:30 a.m. to 3:00 p.m.

                                            •    The facility is 18 miles from the Oakland ISF.

                                            •    The facility processed 6.8 million pounds of military
                                                 surface mail in 2003, an amount that could be easily
                                                 absorbed by the Oakland ISF.

                                        We concluded that this mail could be processed more
                                        efficiently using automated or mechanized equipment
                                        available at the Oakland ISF.

                                        Title 39, U.S.C., Chapter 4, Section 403 states, “The Postal
                                        Service shall plan, develop, promote and provide adequate
                                        and efficient postal services. . . .” Postal Service
                                        management addressed operational efficiency through the
                                        budget process focusing on workhour utilization against the
                                        plan. However, Postal Service management had not
                                        evaluated operational efficiency in the manner carried out by
                                        this audit.

    Facility Cost Avoidance             The Postal Service could avoid facility costs of approximately
                                        $3.4 million over ten years by closing the Regatta facility.
                                        Appendix D summarizes the financial impact of closing the
                                        Regatta facility.

    Transfer of Regatta                 Postal Service managers believe that by the end of 2006,
    Workload to Oakland                 they can reduce the number of workhours needed to process
    International Service               the Regatta facility mail volumes, currently 38,500 workhours
    Facility                            annually, by 15,000 hours. They stated that the workhours
                                        can be reduced in three equal increments of 5,000 hours
                                        each. The Oakland ISF will absorb the remaining workhours,
                                        along with Regatta’s mail volume.

8
    Military surface mail is mail that is transported by any mode other than air such as sea, rail, or highway.


                                                            6
Efficiency of Oakland International                                                  NO-AR-04-007
 Service Facility and the Regatta Facility


                                  The transfer of the Regatta facility workload should improve
                                  plant and equipment efficiency in the Bay-Valley District and
                                  save approximately $5.4 million over ten years. Appendix D
                                  summarizes the financial impact of transferring the Regatta
                                  facility workload to the Oakland ISF.

 Management’s Actions             During our review, Postal Service management agreed to
                                  terminate the lease, close the Regatta facility, and transfer
                                  the mail to the Oakland ISF for processing. Management
                                  further agreed they would reduce the current annual
                                  workhour budget by 15,000 hours by the end of 2006.

 Recommendation                   To improve operating efficiency, we recommend the
                                  manager, Bay-Valley District:

                                       3. Close the Regatta facility as planned and transfer the
                                          mail volume and workhour budget to the Oakland
                                          International Service Facility.

 Management’s                     Management agreed with our finding and recommendation
 Comments                         except that Building 512 will be closed instead of the Regatta
                                  facility. Management indicated that Building 512 is similar to
                                  the Regatta facility with regard to operating cost.

 Evaluation of                    Management’s actions, taken or planned, should correct the
 Management’s                     issues identified in the findings.
 Comments




                                                  7
Efficiency of Oakland International                                                          NO-AR-04-007
 Service Facility and the Regatta Facility



                                             APPENDIX A

                 REVENUE AND GROWTH RATE PERCENTAGES
                            FYs 1998 TO 2002
       Revenue                   1998           1999          2000           2001              2002
First-Class Mail                1.40%          3.20%         1.70%           1.00%             1.70%

Standard Mail (A)               6.40%          5.40%         5.20%           3.40%             0.70%

Priority Mail                   8.60%          8.30%         6.70%           1.60%            -3.90%

Standard Mail (B)               7.80%          4.20%         4.60%           4.30%             4.30%

Periodicals Mail                0.20%          2.10%         2.60%           1.60%            -1.80%

International Mail              -0.90%         1.80%         1.80%           4.50%            -8.80%

International mail revenue declined 8.8 percent between FYs 2001 and 2002, after maintaining a steady
increase between FYs 1999 and 2001.

        Volume                   1998           1999          2000           2001              2002

First-Class Mail                0.80%          1.50%         1.60%           0.10%            -1.20%

Standard Mail (A)               6.80%          3.80%         5.10%          -0.10%            -3.00%

Priority Mail                   9.90%          1.30%         2.80%          -8.60%           -10.70%

Standard Mail (B)               3.50%          1.90%         8.20%          -3.10%            -1.60%

Periodicals Mail                -0.90%         -0.40%        0.90%          -2.80%            -3.80%

International Mail              -6.20%         9.20%         6.70%          -1.50%           -16.50%

The growth pattern in international mail volume over the past five years has shown considerable volatility.

SOURCE: These percentages were calculated based on operating statistics from Postal Service annual
reports.




                                                  8
Efficiency of Oakland International                                         NO-AR-04-007
 Service Facility and the Regatta Facility


                                             APPENDIX B

                                   PRIOR AUDIT COVERAGE

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, September 26, 2002), found that
many of the business mail entry employees at the Denver Bulk Mail Center and Denver
General Mail Facility were not needed to accept business mailings. Management could
save an estimated $1 million annually by reducing the number of employees. We
recommended management oversee the consolidation of business mail entry
operations and reduce staff as planned, and reevaluate staffing to determine whether
further staff reductions were necessary. Management agreed, and the actions taken
and planned were responsive to the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, March 28, 2003), found
that these facilities should reduce the workhours necessary to accept business mailings.
Management could save an estimated $588,730 through the end of FY 2005 by
reducing its workhours as planned. We recommended that senior plant managers at
the Seattle, Minneapolis, and Des Moines Bulk Mail Centers reduce hours, reevaluate
staffing needs periodically, and ensure that appropriately trained personnel perform
acceptance functions. Management agreed, and the actions taken and planned were
responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, July 31, 2003), found that the district should
reduce the workhours necessary to accept business mailings. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours by
28,800 hours by the end of FY 2005. This reduction in workhours could produce an
estimated cost avoidance of approximately $9.26 million over ten years. We
recommended that the manager, Los Angeles District, reduce hours and reevaluate
staffing needs periodically. Management agreed with our recommendations and has
initiatives in progress addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the San Francisco
District (Report Number AO-AR-03-002, September 25, 2003), found that the district
should reduce the workhours necessary to accept business mailings in the
San Francisco Business Mail Entry Unit. During the audit, Postal Service management
agreed to aggressively reduce business mail entry workhours by 18,000 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of approximately $6.9 million over ten years. We recommended the
manager, San Francisco District, reduce hours as planned and reevaluate staffing
needs periodically. Management agreed, and the actions taken and planned were
responsive to the issues identified in the report.


                                                9
Efficiency of Oakland International                                          NO-AR-04-007
 Service Facility and the Regatta Facility



Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, December 24, 2003), found
that the district should reduce the workhours necessary to accept business mailings in
the Southern Maryland Business Mail Entry Unit. During the audit, Postal Service
management agreed to aggressively reduce business mail entry workhours by
20,240 hours by the end of FY 2006. This reduction in workhours could produce an
estimated cost avoidance of approximately $8.4 million over ten years. We
recommended the manager, Capitol District, reduce hours as planned and reevaluate
staffing needs periodically. Management agreed, and the actions taken and planned
were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, December 26, 2003), found
that the district should reduce the workhours necessary to accept business mailings in
the Columbia, Maryland, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 3,960 hours by the
end of FY 2005. This reduction in workhours could produce an estimated cost
avoidance of approximately $1.4 million over ten years. We recommended the
manager, Baltimore District, reduce hours as planned and periodically reevaluate
staffing. Management agreed, and the actions taken and planned were responsive to
the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia,
Business Mail Entry Unit (Report Number NO-AR-04-004, February 9, 2004), found that
the district should reduce the workhours necessary to accept business mailings in the
Springfield, Virginia, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 2,775 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of $969,893 over ten years. We recommended the manager, Northern
Virginia District, reduce hours as planned and periodically reevaluate staffing.
Management agreed, and the actions taken and planned were responsive to the issues
identified in the report.




                                             10
Efficiency of Oakland International                                                       NO-AR-04-007
 Service Facility and the Regatta Facility



                                             APPENDIX C

                         COST AVOIDANCE AT THE OAKLAND
                          INTERNATIONAL SERVICE FACILITY

                                   (FUNDS PUT TO BETTER USE)


                                             Yearly Reduction             Cost Avoidance
                                              in Workhours                (Ten Years with
                     Year
                                                                            Escalation)
                                                  8,334                      $3,596,216
                  FY 2004
                                                  8,333                      $3,686,121
                  FY 2005
                                                  8,333                      $3,778,274
                  FY 2006
        Totals (ten fiscal years)                 25,000                     $11,060,611

           Net Present Value at
                                                                             $8,208,753
        4.5 Percent for Ten Fiscal
                  Years



NOTES

    •    The 8,333 hour reduction was based on Postal Service management’s plan to reduce workhours
         by 25,000 over a three-year period.
    •    The cost avoidance was calculated using the hour saving time multiplied by the escalated labor
         rate over a ten-year period.
    •    The net present value was calculated using the discount rate of 4.5 percent over a ten-year
         period.
    •    The labor rates were based on the Postal Service 2003 Published Rates for a PS-05 mail
         processing clerk.
    •    The yearly escalation factor is 2.5 percent.
    •    The Postal Service cost of borrowing is 4.5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by implementing
recommended actions.




                                                 11
Efficiency of Oakland International                                                    NO-AR-04-007
 Service Facility and the Regatta Facility


                                             APPENDIX D

                PROJECTIONS OF COST AVOIDANCE BASED ON
                    CLOSURE OF THE REGATTA FACILITY
                         (FUNDS PUT TO BETTER USE)


                                              Cost Avoidance             Net Present Value of
             Facility Savings                 (Ten Years with           Savings at 4.5 Percent
                                                Escalation)                 for Ten Years


      Facility Savings – Rent                   $ 3,294,451
      Facility Savings – Utilities              $ 892,345
      Facility Savings – Taxes                  $ 230,587
       Total Facility Savings                   $ 4,417,383                    $3,398,430


             REGATTA FACILITY COST AVOIDANCE FOR LABOR
                                   (FUNDS PUT TO BETTER USE)


                                             Total Reduction in             Cost Avoidance
             Beginning Year                      Workhour                     (Ten Years)


                  FY 2007                            15,000                    $6,970,915

         Net Present Value at
                                                                               $5,406,776
           4.5 Percent for
              Ten Years


NOTES
  • Cost avoidance was calculated using the escalated lease and utility savings over a ten-year
      period. The first year calculation includes nine months.
  • The net present value was calculated using the discount rate of 4.5 percent over a ten-year
      period.
  • The yearly escalation factor is 0.80 percent for lease cost and 0.50 percent for utilities.
  • The Postal Service cost of borrowing is 4.5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by implementing
recommended actions.




                                                12
Efficiency of Oakland International                     NO-AR-04-007
 Service Facility and the Regatta Facility


                    APPENDIX E. MANAGEMENT’S COMMENTS




                                             13
Efficiency of Oakland International               NO-AR-04-007
 Service Facility and the Regatta Facility




                                             14
Efficiency of Oakland International               NO-AR-04-007
 Service Facility and the Regatta Facility




                                             15
